HHS/OIG, Audit -"Medical Review of Quitman Clinic's Partial Hospitalization Services for the Period August 1,
2000, Through December 31, 2002,"(A-07-04-04034)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Medical Review of Quitman Clinic's Partial Hospitalization Services for
the Period August 1, 2000, Through December 31, 2002," (A-07-04-04034)
March 4, 2005
Complete
Text of Report is available in PDF format (727 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Medicare claims submitted by Quitman Clinic for partial
hospitalization program (PHP) services met Medicare reimbursement requirements.  Medical reviewers determined that
none of the services on 100 sampled claims met Medicare reimbursement requirements.  Because none of the sampled claims
were eligible for Medicare reimbursement, the entire universe of 1,714 claims for the period August 1, 2000, through December
31, 2002, totaling $12,491,797 in payments, should not have been billed to Medicare.  We recommended that Quitman
Clinic refund to the Medicare program $12,491,797 in unallowable payments and strengthen its procedures to ensure that
PHP claims meet Medicare reimbursement requirements.  While Quitman Clinic disagreed with the recommendation to repay
the $12,491,797, it agreed to strengthen its procedures.